                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGAnONS

                                             CLOSEOUT MEMORANDUM

 Case Number: .110020005                                                                      Page 1 of 1



         This case was generated from a proactive review l ofS-STEM awards. We selected an award2
         and requested the general ledger and supporting documentation for each scholarship awarded.

         We reviewed the institution's production and determined the scholarships were awarded to
         eligible recipients as required by the program solicitation. We also did not identify any issues or
         areas of concern based on a review of the general ledger.

         Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
